Semiannual Report to the Congress
   April 1 – September 30, 2001
                      Mission Statement
The Department of Defense Inspector General promotes national
security and integrity and credibility in Government by conducting
objective and independent audits, investigations, evaluations, and
  other activities to prevent, detect, and help correct problems in
   DoD programs and to identify opportunities for improving
                   efficiency and effectiveness.
                                   FOREWORD



The terrorist attacks of September 11, 2001, and the national response, including
Operation Enduring Freedom, became the central events of the 6-month period
covered by this report, April 1 to September 30, 2001. The audit, inspection, and
investigative organizations of the Department of Defense are giving the highest
priority to providing highly responsive support to managers, commanders, and law
enforcement authorities for the duration of the counterterrorist campaign. This
support ranges from the active participation of our criminal investigators in tracking
down terrorists and their accomplices to audits or inspections to address salient
concerns, such as security and chemical/biological defense readiness. We highlight
some of those efforts in Chapter Three.

Without the events of September 11, the main theme of this report would have been
that audit, inspection, and investigative results continued to identify the need for the
transformation and reform across the spectrum of Defense management activities.
Chapter One of this report discusses what we consider to be the 10 most challenging
management areas. Chapter Two summarizes the oversight activity during the period,
which resulted in the identification of $3.7 billion in potential savings by audits and
$.9 billion in monetary results from criminal investigations. The classified annex to
this report provides details on intelligence oversight and a focus area discussion on
information system security throughout the Department of Defense.

We sincerely appreciate the support of Defense leaders and Congress for our efforts to
combat fraud and improve the stewardship of Defense assets.
Table of Contents                                                                                    Semiannual Report to the Congress




                                              TABLE OF CONTENTS
                                                                                                                                                   Page

CHAPTER ONE – DOD MANAGEMENT CHALLENGES. . . . . . . . . . . . . . . . . . . . . . . . . .                                                            1
    Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
    Information Technology Acquisition. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         1
    Information System Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   2
    Other Security Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 2
    Financial Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 3
    Acquisition. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        4
    Health Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         5
    Inventory Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  5
    Other Infrastructure Issues. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                6
    Readiness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       6
    Human Capital . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           7

CHAPTER TWO - SIGNIFICANT ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                              8
    Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        8
    Criminal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               8
    Criminal Investigative Policy and Oversight. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           15
    Administrative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  16
    Auditing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     19
    Intelligence Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            21

CHAPTER THREE - RESPONDING TO TERRORISM . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                      22
    Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       22
    Defense Criminal Investigative Service (DCIS) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              22
    U.S. Army Criminal Investigative Command (USACIDC) . . . . . . . . . . . . . . . . . . . . . . . . . .                                           23
    Naval Criminal Investigative Service (NCIS) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            24
    Air Force Office of Special Investigations (AFOSI) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                               25
    Audit and Inspection Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  26

PRESIDENT’S COUNCIL ON INTEGRITY AND EFFICIENCY/EXECUTIVE
COUNCIL ON INTEGRITY AND EFFICIENCY (PCIE/ECIE) AWARDS . . . . . . . . . . . . .                                                                     28


APPENDICES
    A. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . . .                                            30
    B. Inspector General, DoD, Audit Reports Issued Containing
       Quantifiable Potential Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             .39



                                                                          ii
Semiannual Report to the Congress                                                                                    Table of Contents




    C. Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   40
    D. Contract Audit Reports Issued. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          42

FIGURES
    1.    Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           9
    2.    Nature of Substantiated Allegations Against Senior
          Officials During 2nd Half FY 01 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        18
         DoD Total Senior Official Cases - FY 98 - FY 01 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 18
Semiannual Report to the Congress                                                         Chapter One




CHAPTER ONE – DOD MANAGEMENT CHALLENGES

INTRODUCTION                The Department of Defense (DoD) audit, inspection, and investigation
                            organizations provide a wide variety of support to DoD leaders, Federal
                            law enforcement officials, and the Congress. Our priorities are determined
                            by the needs of those stake-holders.

                            The management reform initiatives announced by the Department over
                            the past several months are aligned closely with the management
                            challenges identified in our previous semiannual report and the high risk
                            areas listed by the General Accounting Office. The continued threat of
                            terrorist attacks and the need to support Operation Enduring Freedom
                            have changed many management priorities and put a premium on
                            correcting deficiencies that could impair homeland defense and military
                            readiness. It is also important, however, for the Department not to lose
                            momentum in addressing the many broad issues related to general effec-
                            tiveness and efficiency in administrative and other support functions.
                            With these factors in mind, this chapter updates our views on the status of
                            top management challenges, as reflected in recent oversight results.

INFORMATION                 The key to more efficient processes in all DoD support operations is better
TECHNOLOGY                  information. Despite the vast scale of DoD information networks and
ACQUISITION                 computing capabilities, both leaders and subordinates still must deal
                            frequently with information that is untimely, inaccurate, incomplete, or
                            otherwise not useful. In large part, this is due to the lack of fully inte-
                            grated information systems that have good data quality controls and are
                            capable of meeting all key information requirements.

                            Reform of the chaotic DoD information management picture has been
                            under way for a decade. The main challenges have been to establish a
                            comprehensive information architecture and a capital investment process
                            that efficiently implements it. With the recent approval of the Global
                            Information Grid, the Department took a major step toward interopera-
                            bility across the organization and appropriate emphasis on providing
                            useful data efficiently to the warfighters. Additional effort is needed to
                            standardize data elements and develop DoD-wide architecture for stream-
                            lined DoD business processes. With this framework in place, DoD will
                            need to follow through with rigorous management of its information
                            technology investments in individual systems. Historically, management
                            controls have been weak and central review processes have been
                            ineffective.


                                                  1
Chapter One                                                Semiannual Report to the Congress




                  In past semiannual reports, we have been highly critical of the unmanaged
                  risk and subsequent performance failures in numerous DoD system
                  acquisition projects. Those concerns remain, although audits completed
                  during the period identified two recent success stories: the Global Trans-
                  portation Network for controlling in-transit materiel and Power Track for
                  freight payments. Audits also indicated that improvements were needed in
                  acquiring the Joint Personnel Adjudication System, the Defense Civilian
                  Personnel Data System, the Defense Security Assistance Management
                  System, and others.

INFORMATION       The bulk of our coverage related to information technology was focused
SYSTEM SECURITY   on information assurance, primarily because of the requirements of the
                  Government Information Security Reform Act (GISRA). Audits and
                  inspections of individual sites or systems showed a wide range of
                  continuing vulnerabilities. The audits of the first year of GISRA self
                  assessments faulted the Department for belated and incomplete guidance,
                  as well as a lack of good metrics. The second year of self-assessments is
                  expected to yield more substantive and reliable results. Further details are
                  in the classified annex to this report.

                  Although implementing GISRA has been difficult, the OIG, DoD,
                  believes that its mandatory reporting requirements have refocused the
                  Department's attention on this critical area. Until it was passed, we were
                  very concerned that information security was a declining priority. In an
                  August 2001 report, Application of Year 2000 Lessons Learned, we
                  recounted the DoD failure to adapt the proven "Y2K" management
                  method to the highly similar information assurance challenge.

                  The GISRA has a sunset provision and will expire unless Congress acts
                  next year. Although some simplification and clarification of the current
                  GISRA language may be advisable, we believe that the information
                  assurance threat is greater than ever and mandatory self assessments, with
                  independent review, serve the Department's best interest. Therefore we
                  recommend continuation of the core GISRA requirements.

OTHER SECURITY    Defending against further terrorist attacks poses enormous physical
CONCERNS          security challenges because of the sheer number of potential terrorist
                  targets and the wide variety of weapons that could be employed. In
                  addition to those concerns, the DoD still needs to deal with longstanding
                  issues in other security-related areas. Effectively controlling the transfer
                  of sensitive U.S. military technology overseas, for example, remains a
                  high priority, but the Congress has not yet passed a new Export Adminis-
                  tration Act, and reforms of the multiagency processes for reviewing

                                        2
Semiannual Report to the Congress                                                           Chapter One




                            export license applications are incomplete. The results of this year's
                            multiagency audit of export controls, which was mandated by the
                            National Defense Authorization Act for FY 2000, will be included in our
                            next semiannual report.

                            The inability of the Defense Personnel Security Program to ensure timely
                            investigations also remains a serious concern. The Defense Security
                            Service (DSS) has increased its productivity and the Office of Personnel
                            Management (OPM) has provided good support through its contractors to
                            work off the backlog of several hundred thousand overdue clearance
                            investigations and achieve reasonable turnaround times for new investiga-
                            tion requests. The program remains hampered, however, by uncertain
                            projections of the future investigative workload. There is widespread
                            skepticism among DoD components about the ability of DSS to efficiently
                            handle more workload, yet DSS views the outsourcing of much of the
                            investigative workload to OPM as a temporary measure. The long delayed
                            transition of DSS to a pay-for-service organization remains a key DoD
                            management objective, but DSS still lacks a cost accounting system.

                            The OIG, DoD, believes that any large scale shift of investigative work-
                            load back to DSS should be done incrementally and on a trial basis, with
                            close oversight of the results. Any transfer must be justifiable on the basis
                            that DSS will be able to out-perform OPM in terms of the cost, timeliness,
                            and quality of investigations. We plan additional audit work on these
                            issues during fiscal year 2002.

FINANCIAL                   The Secretary of Defense established the Defense Financial Management
MANAGEMENT                  Modernization Program to provide policy direction and central control for
                            all DoD financial management improvement efforts. Led by the Under
                            Secretary of Defense (Comptroller), this effort appears to be a much better
                            structured and more comprehensive initiative than the disjointed DoD
                            efforts of the past several years. New emphasis on business process
                            reengineering, providing useful financial information to managers, and
                            reducing the number of systems processing financial data is encouraging
                            and merits strong support.

                            We also are encouraged by the primary focus of the Office of Manage-
                            ment and Budget, Congress, and the DoD on attaining financial manage-
                            ment systems that facilitate more efficient operations. In the past several
                            semiannual reports and in numerous hearings, we expressed concern
                            about the widespread preoccupation with clean audit opinions on end-of-
                            year financial statements. In the absence of adequate financial reporting
                            systems, favorable audit opinions for virtually all major DoD financial

                                                   3
Chapter One                                            Semiannual Report to the Congress




              statements were impossible, yet unrealistic goals were continuously set.
              To fulfill mandatory audit requirements, the DoD internal audit agencies
              had to apply disproportionate resources to financial statement audits. Not
              only was much of this effort repetitive, but it siphoned scarce audit
              resources away from other important areas, including other aspects of
              DoD financial management.

              In consonance with the overall shift in DoD financial management
              modernization priorities, we are scaling back the audit effort on financial
              statements whose managers acknowledge that they are not compliant with
              applicable standards. Chief emphasis will be on auditing the development
              of an overall DoD financial systems architecture and acquiring or modi-
              fying the approved family of systems. Although this will be a large audit
              workload, it is similar to our role in the successful Year 2000 systems
              conversion effort.

              The lack of standard cost accounting systems to support numerous DoD
              operations is a major concern and a good example of the practical prob-
              lems that have gone unaddressed due to other management priorities. In
              addition to the previously mentioned DSS cost accounting problem, we
              reported in August 2001 that DoD had prematurely claimed success in
              establishing a standard cost accounting system to support life cycle cost
              management for weapon systems.

              Although the Department has tried to be responsive to audit recommen-
              dations on financial management problems, we reported in September
              2001 that an initiative to reduce the number of charges to wrong accounts
              when making progress payments on weapons contracts had been ineffec-
              tual. This initiative was intended to address multiple audit findings made
              during the 1990's. Prospects for improvement or replacement of the
              current initiative are uncertain, because neither the acquisition community
              nor the finance centers previously have shown a strong commitment to
              solving the problem.

ACQUISITION   The Defense Acquisition Program was already the largest, and one of the
              most diverse, capital investment programs in the world before the recently
              approved increases to finance weapon systems modernization, force
              transformation, and the war on terrorism. Although acquisition reform has
              been a high priority of several Administrations and Congresses, contro-
              versy remains about the effectiveness of previous reform efforts. Like-
              wise, while it is generally agreed that speeding up the acquisition process
              would be beneficial and many current practices could be streamlined
              further, the high incidence of operational test and evaluation failures

                                    4
Semiannual Report to the Congress                                                         Chapter One




                            reported by independent testers underscores the need for careful attention
                            to acquisition planning, contractor performance, and product quality.

                            In previous semiannual reports, we discussed the need for more manage-
                            ment attention to DoD contracts for services, which total well over $50
                            billion annually. The Under Secretary of Defense for Acquisition, Tech-
                            nology and Logistics has taken commendable steps to provide more
                            oversight of the largest contracts for services, but the thousands of other
                            contracts and purchase actions for services remain a challenge. In
                            September 2001, we reported continued failure by DoD organizations to
                            minimize sole source awards for task order contracts. In addition, we
                            continued our series of audits on contracting for services by individual
                            organizations and reported in April 2001 that a large Defense agency's
                            contracting effort needed improvement. Because purchasing services is a
                            huge and growing acquisition program in its own right, this area merits
                            continued management attention and audit coverage. Several related bills
                            and legislative provisions have been introduced in Congress, and we look
                            forward to working further with the Administration and Congress on these
                            matters.

                            While the increased use of Government credit cards for making millions
                            of small purchases annually has been enormously beneficial, numerous
                            audits and investigations have indicated weaknesses in management
                            controls, which the DoD is attempting to remedy. We will address this
                            topic as a focus area in the next semiannual report.

HEALTH CARE                 The challenges related to terrorist threats and medical support of Opera-
                            tion Enduring Freedom will further tax the Defense Health Program,
                            which was already struggling with medical readiness, health care fraud,
                            cost containment, and quality of service issues.

                            Despite numerous successful health care fraud investigations and prose-
                            cutions, the large amount of fraud being detected in this area demonstrates
                            the continued risk to TRICARE, the Defense health care delivery pro-
                            gram. The Defense Criminal Investigative Service (DCIS) had 461 open
                            criminal investigations in this area in September 2001.

INVENTORY                   Logistics management reform over the past several years has focused on
MANAGEMENT                  adopting private sector techniques, improving visibility and control over
                            assets, and reducing costs, while simultaneously improving customer
                            service. Results have been mixed, especially in cost reduction and service
                            delivery. Operation Enduring Freedom poses daunting logistical support


                                                  5
Chapter One                                               Semiannual Report to the Congress




                 challenges and an acid test of the effectiveness of many new systems and
                 processes.

                 During the reporting period, audits and inspections indicated need for
                 improvement in a number of logistics areas, especially supply manage-
                 ment. Spare parts shortages and deficiencies in accountability and control
                 of materiel continued to be frequent findings.

OTHER            The OIG, DoD, has repeatedly endorsed the need for at least one more
INFRASTRUCTURE   round of base closures and realignments. Our view has not changed, and
ISSUES           we stand ready to assist the DoD in implementing whatever program the
                 Congress approves.

                 The Department is pressing forward with reorganizations and additional
                 public/private competitions for a variety of functions currently performed
                 in-house. The intention, a longstanding DoD goal, is to reduce support
                 costs to free up funding for recapitalization. As with base closures, nearly
                 all management decisions affecting jobs are controversial, and great care
                 is needed not to demoralize the workforce or make decisions based on
                 questionable information. The DoD internal auditors are heavily engaged
                 in providing independent review of public/private competitions. In the
                 case of the Air Force, this is a new responsibility for the Air Force Audit
                 Agency and fills a systemic gap disclosed by an OIG, DoD, audit during
                 this reporting period.

                 Another infrastructure challenge is facilities recapitalization. According
                 to the Quadrennial Defense Review, the private sector replaces or rebuilds
                 facilities at an average rate of every 57 years. Due to chronic under-
                 funding, the current DoD rate is every 192 years, which is almost nonsen-
                 sical. In addition to cutting the existing base structure, the Department
                 needs better strategic planning for facilities modernization. Historically,
                 facilities programs compete poorly in the budget competition, despite
                 their importance for the productivity and quality of life of military
                 members and civilian employees. Modern facilities are virtually certain to
                 be more secure, less expensive to maintain, and more environmentally
                 benign than those they replace.

READINESS        Most of the major challenges discussed in this chapter have direct or
                 indirect bearing on the readiness of U.S. military forces to carry out their
                 missions. Nevertheless, we have included readiness as a distinct item to
                 highlight certain challenges.




                                       6
Semiannual Report to the Congress                                                            Chapter One




                            Accurate readiness reporting has been a management challenge for many
                            years and frequently is the focus of audits and inspections. During this
                            semiannual reporting period, for example, the Naval Audit Service
                            reported in August 2001 that the readiness status of 9 of 15 audited
                            Marine Corps aviation squadrons was overstated. Similarly, the investiga-
                            tion discussed in Chapter Two on the MV-22 Osprey training squadron
                            confirmed inaccurate readiness status reporting.

                            The ongoing transformation of U.S. military forces, coupled with the
                            counterterrorism challenge, will necessitate far-reaching changes in
                            doctrine, policy, training, and metrics for evaluating readiness. In the past,
                            changes in those areas generally have required long periods of time and
                            tremendous investment of staff resources. In our view, the Department
                            must find ways to speed up those processes and avoid the frequently seen
                            cycle of incomplete guidance, inadequate implementation, and insuffi-
                            cient performance measurement to gauge results. It will be particularly
                            important to ensure that adequate training is provided to carry out
                            homeland defense and counterterrorism missions. Ongoing audit and
                            inspection coverage of such issues as force protection programs and
                            National Guard and Reserve readiness should be helpful in that regard.

HUMAN CAPITAL               Both the Administration and Congress have recognized the challenges
                            posed by a decade of distorted hiring and retention patterns and the
                            prospect of nearly half the Federal civilian workforce reaching retirement
                            eligibility within 5 years. We are particularly supportive of the new DoD
                            efforts to formulate a strategic management plan for the civilian work-
                            force, which would address a longstanding gap in Defense planning. As
                            the Department transforms itself to meet the challenges of the 21st
                            century, it needs to answer long unresolved questions regarding the size
                            and requisite skills of its workforce. Although we support more flexible
                            personnel management rules and procedures, those are merely tools with
                            which to shape the workforce, and the primary management emphasis
                            should be on sound planning to resolve the basic goals for workforce size
                            and skills. Hopefully, such planning would be sound enough to ensure
                            consistency across fairly long time spans, so that meaningful career
                            development efforts can succeed and frequent stop/start hiring patterns
                            can be minimized.




                                                   7
Chapter Two                                                 Semiannual Report to the Congress




CHAPTER TWO - SIGNIFICANT ACTIVITIES

INTRODUCTION       This chapter summarizes the significant activities of the OIG, DoD,
                   components and their work with other members of the DoD oversight
                   community.

CRIMINAL           The four Defense Criminal Investigative Organizations (DCIOs) continue
INVESTIGATIONS     to combat crime affecting the DoD. The DCIS focuses on procurement
                   fraud, health care fraud, computer crimes, major thefts, and significant
                   crimes impacting Defense agencies. The U.S. Army Criminal Investiga-
                   tion Command, the Naval Criminal Investigative Service (NCIS), and the
                   Air Force Office of Special Investigations (AFOSI), also investigate
                   procurement fraud, but focus mostly on other crimes against persons and
                   property affecting their respective Military Departments, as well as force
                   protection. The AFOSI and NCIS also conduct counterintelligence
                   investigations and operations.

                   Monetary recoveries and fines related to criminal investigations totaled
                   more than $901 million. Figure 1 (page 9) displays other statistical results
                   achieved by the four investigative organizations during the semiannual
                   period. The following are examples of significant fraud cases.

 Environmental     Investigations in this area address matters such as the removal, transport,
 Crimes            and disposal of hazardous material from DoD installations or contractors.

                   Simpson Construction Company (SCC), Cleveland, Tennessee, was
                   alleged to have illegally disposed of hazardous waste from its onsite
                   operations. The SCC specialized in bridge construction and had contracts
                   with the Army Corps of Engineers. Investigation disclosed that SCC
                   directed management employees to clean equipment with highly flam-
                   mable solvents. Large quantities of waste solvents were dumped into a
                   burn pit. The SCC was sentenced to 1 year probation and ordered to pay a
                   fine and damages totaling $867,321 and a $400 special assessment for
                   violating the Resource Conservation and Recovery Act.

 Computer Crimes   Criminal activity in the cyber environment continues to grow with
                   viruses, denial of service attacks, and hacker attacks being the most
                   notorious computer crimes. Easy access to the Internet has led to another
                   type of computer crime--accessing child pornography using DoD com-
                   puters. The pornography is often discovered while examining DoD
                   computers for evidence in other criminal matters, or is detected and
                   reported by network administrators.

                                         8
Semiannual Report to the Congress                                                            Chapter Two




             Judicial and Administrative Actions

            Convictions       71             237


            Indictments        76            231                        Procurement/Health
                                                                        Care Fraud
                              46                                        Other
           Debarments


            Suspensions 40

                          0         100      200          300    400




                                               Figure 1


                               As an example, a Navy petty officer assigned to the U.S. Joint Forces
                               Command, Norfolk, Virginia, accessed child pornography from his DoD
                               computer. He pled guilty to child pornography and a related charge and
                               was sentenced to 8 months confinement, a bad conduct discharge, and
                               reduction in grade from E-5 to E-1.

 Financial Crimes              Offenses considered to be financial crimes generally involve contract
                               mischarging or defrauding pay systems.

                               A California company agreed to pay $8.2 million in a civil settlement to
                               resolve issues raised in a qui tam lawsuit. The suit alleged that the
                               company improperly charged millions of dollars to DoD and other
                               Government accounts that were actually overhead and other indirect costs
                               attributed to the company’s commercial work.

                               Johnny F. Smith Truck and Dragline Service, Incorporated, billed the
                               Government for nonexistent employees and equipment, charged for


                                                    9
Chapter Two                                             Semiannual Report to the Congress




              operating equipment that was idle, and deliberately slowed the work pace.
              The company was working under two disaster clean-up contracts totaling
              $22.3 million, awarded after Hurricane Fran struck Eastern North
              Carolina in 1996. The company pled guilty in Federal court to conspiracy
              to defraud the Army Corps of Engineers, the Federal Emergency Manage-
              ment Agency, and the State of North Carolina. Under terms of a plea
              agreement, the company paid $2.4 million in fines and restitution.

              An undercover operation resulted in convictions of a vice president and
              three employees of Bayship Management, Incorporated, New Jersey, for
              kickbacks, false claims, money laundering, and fraud. A vice president of
              Bayship and three other individuals received sentences of imprisonment
              ranging from 13 to 27 months and payment of a total of $988,699 in
              restitution and assessments.

              In a civil settlement, Unidyne Corporation (a subsidiary of Titan Corpora-
              tion) agreed to pay $1.8 million to resolve allegations of timecard fraud,
              mischarging, and submission of false resumes. An attorney representing
              current and former Unidyne employees initially brought these allegations
              to the Government's attention.

              Two Air Force military personnel were convicted of larceny by fraud
              charges. The Service members were involved in a conspiracy to deposit
              bad checks into their respective bank accounts and then withdraw the
              cash, resulting in a $24,350 loss to their banks and a military credit union.
              One member was sentenced to 26 months in prison and given a dis-
              honorable discharge. The other received a dishonorable discharge.

              A 1997 qui tam suit alleged and a 1999 Army audit found evidence that
              Alabama Agricultural and Mechanical University misrepresented the
              number of actual students participating in a course funded by the Army.
              The University agreed to pay the Government $416,250 in a civil settle-
              ment.

 Technology   Technology transfer cases involve the illegal export or acquisition of
 Transfer     sensitive DoD technologies, weapons systems, parts, and intellectual
              property.

              Two employees of Multicore, Limited, pled guilty to violating the Arms
              Export Control Act and the International Emergency Economic Powers
              Act. The employees purchased parts for the F-4 Phantom, the F-5 Tiger,
              and F-14 Tomcat aircraft and the Hawk missile system from legitimate
              vendors in the United States, then shipped the parts to California using a

                                    10
Semiannual Report to the Congress                                                          Chapter Two




                            fictitious business entity. There the parts were stored for shipment to
                            Singapore, without export licenses from the U.S. Government, and later
                            transferred to Iran. The employees were debarred from contracting with
                            the Government and sentenced to confinement and probation.

 Theft                      Theft of DoD material and munitions from the supply system and at the
                            base level has a direct effect on military operational readiness. Another
                            vulnerability is theft of funds and property using the Government
                            purchase card.

                            Investigators uncovered misuse of Government purchase cards by
                            merchants and employees of the DoD and the Environmental Protection
                            Agency. The DoD employees assigned to the Pentagon used a variety of
                            credit card schemes for personal gain. For actual supply purchases,
                            employees directed business to certain contractors in exchange for cash
                            kickbacks. In other cases, bogus "purchases" were directed to certain
                            office supply companies, particularly two Maryland companies. In these
                            cases, the vendors split the payment for the bogus transactions with the
                            DoD employees. Ten subjects pled guilty to a variety of charges including
                            bribery, kickbacks, money laundering, and conspiracy. Nine defendants
                            were ordered to pay restitution totaling $914,133. They will each serve
                            various periods of probation. Six of the defendants will also serve con-
                            finement ranging from 6 months home detention to 15 years imprison-
                            ment. The two Maryland supply companies have been debarred from
                            Government contracting.

                            An investigation revealed that an Army civilian, a chief warrant officer, a
                            master sergeant, and two staff sergeants were involved in fraud. The
                            master sergeant stole parts, equipment, and tools for his own use. The
                            civilian used a Government purchase card to purchase items for his and
                            others personal use. Additionally, the civilian collaborated with the master
                            sergeant to place stolen property on an installation’s property book hand
                            receipt after discovery of the larcenies. The investigation also showed that
                            one staff sergeant stole Government property while another staff sergeant
                            knowingly received items stolen by the civilian and diverted them to his
                            own use. Additionally, the chief warrant officer, who was the authorizing
                            official, did not review any of the purchases. The loss to the Government
                            was approximately $92,949. The civilian was granted immunity after
                            agreeing to provide information pertaining to the military members. The
                            master sergeant was sentenced to 4 months confinement, reduction in
                            rank, and a bad conduct discharge. One staff sergeant was reduced in
                            grade to private first class, while the other staff sergeant was reduced to


                                                  11
Chapter Two                                              Semiannual Report to the Congress



                    specialist four and fined $600. The chief warrant officer received a letter
                    of reprimand.

    Medical Fraud   Efforts to combat fraud against TRICARE and other Government health
                    care programs resulted in many successes during this 6-month period. The
                    following sample cases were jointly investigated by multiple Federal law
                    enforcement agencies, and the recovered amounts will be apportioned
                    among the agencies whose programs were victimized, including DoD.

                    Dr. Samir Najjar, of Jacksonville, Florida, was sentenced to 3 years
                    supervised release and was ordered to pay more than $5 million in
                    restitution and forfeit assets. Najjar pled guilty to one count of making
                    false statements to the Government. Najjar knowingly submitted fraudu-
                    lent patient progress notes to TRICARE in connection with a Government
                    audit of insurance claims in an attempt to substantiate fraudulent claims
                    and mislead the auditors.

                    Dr. John A. Campa, III, formerly of Nashville, Tennessee, pled guilty to
                    77 counts related to submitting false claims to private insurers,
                    TRICARE, and other Government insurance programs. The criminal
                    conduct included submitting claims for services and supplies not
                    provided, “upcoding” to more expensive procedures, and submitting
                    claims to multiple insurers as if each was the primary insurer for the
                    patient. Campa was sentenced to 24 months incarceration, 3 years
                    probation, and ordered to pay $219,650 in restitution.

    Bribery and     The Anti-Kickback Act of 1986 provides penalties for Government
    Kickbacks       employees and contractors who engage in bribery and kickbacks in
                    exchange for contracts and subcontracts.

                    Surveillance of a “payoff in progress” helped prove that a civilian
                    employee of the Army Corps of Engineers solicited bribes from
                    subcontractors. The employee, a chemist/quality assurance represen-
                    tative, also tried to obtain jobs for his relatives and other favors in
                    exchange for guaranteeing Corps of Engineers contract awards to the
                    subcontractors. The employee was convicted on three counts of soliciting
                    and/or accepting bribes. He was sentenced to 12 months confinement and
                    a $300 penalty. He was placed on administrative leave without pay;
                    further administrative action is pending.

                    The former chief financial officer of a telecommunications company
                    alleged that his company, a DoD subcontractor, paid $218,586 in kick-
                    backs to an employee of a DoD prime contractor. As part of the kickback


                                      12
Semiannual Report to the Congress                                                           Chapter Two




                            scheme, the subcontractor issued checks to bogus companies believed
                            controlled by the prime contractor’s employee. In return, the subcon-
                            tractor received favorable treatment ranging from paperwork preparation
                            to overlooking quality problems. Three defendants pled guilty to various
                            charges including violating the Anti-Kickback Act and filing false state-
                            ments on income tax returns. They were suspended from contracting with
                            the Government and sentenced to home confinement, probation, and fines
                            totaling $100,000. The subcontractor company was placed on 2 years
                            probation and fined $78,000 for income tax evasion following its guilty
                            plea.

                            Brunacini Appliances, Incorporated, and Sherry Hoff, a DoD contracting
                            employee, were convicted in Federal District Court in New Mexico on
                            bribery charges and ordered to repay the Government $29,000. An
                            investigation revealed that Hoff received bribes in the form of expensive
                            domestic appliances/electronics from Brunacini, which was seeking
                            preference in having its appliances installed in DoD housing units. In
                            addition to the conviction and restitution order, Brunacini and Hoff were
                            placed on probation, and Brunacini was debarred from doing business
                            with the Government.

                            The president of Certified Cleaning Services of Tacoma, Washington, a
                            subcontractor, pled guilty to conspiracy and violating the Anti-Kickback
                            Act. The president was sentenced to 6 months home detention, 5 years
                            probation, and ordered to pay $422,469 in restitution to his company’s
                            prime contractor. The company participated in a kickback scheme associ-
                            ated with a DoD construction contract to install a shell used to keep
                            residual fuel from leaking into the ground water supply from underground
                            tanks.

 Product                    Counterfeit material and other forms of unauthorized substitution of
 Substitution               products into DoD inventories continue to be one of our highest priorities
                            for deterrence, investigation, and prosecution.

                            Information provided by an Aircraft Mishap Investigation Board indi-
                            cated that a faulty bearing, manufactured by Kaydon Corporation and
                            used in the directional control system of the aircraft, caused the crash of a
                            CH-53E helicopter manufactured by Sikorsky Aircraft Corporation
                            (SAC) for the Naval Air Systems Command, during its maiden flight in
                            May 1996. The crash killed the entire crew of four SAC employees and
                            totally destroyed the $25 million aircraft. Kaydon pled guilty to two
                            counts of false statements regarding the submission of false inspection


                                                  13
Chapter Two                                                 Semiannual Report to the Congress




                            certifications to SAC, and was sentenced to a $1 million
                            criminal fine and civil restitution of $6.5 million.

                            Sara Lee Corporation/Bil Mar Foods pled guilty to a one-
                            count corporate misdemeanor information and agreed to pay
                            the maximum criminal fine of $200,000 and to underwrite a
                            $3 million grant for food safety research at Michigan State
                            University. Sara Lee also agreed to pay $1.2 million in resti-
                            tution and investigative costs to the DoD, to settle a civil
                            lawsuit relating to the 1998 sale of Bil Mar meat products for
                            DoD commissary use suspected to be contaminated with the
                            Listeria bacteria. The bacteria was associated with various
                            deaths, miscarriages, stillbirths, and illnesses in 22 states,
                            according to the Centers for Disease Control and Prevention.
                            The DoD recalled and destroyed the suspect meat products.

 MV-22 Osprey   The DCIS investigated allegations that maintenance data and readiness
 Maintenance    records for the U.S. Marine Corps MV-22 Osprey aircraft were being
 Records        falsified at Fixed Wing Marine Medium Tiltrotor Training Squadron 204
                (VMMT-204), Marine Corps Air Station, New River, North Carolina. 1/

                We dedicated, at various times, up to 60 special agents, analysts, and
                administrative support personnel to a 6-month task force operation. Over
                23,000 hours of investigative time was directed to the case. Various
                             investigative techniques were used, including confidential
                             sources, OIG subpoenas, forensic analyses, and polygraph
                             examinations. We conducted over 700 interviews of approxi-
                             mately 475 individuals; seized 38 computers, 125 network
                             data tapes, 66 compact disks, and numerous floppy disks;
                             analyzed computer-based data containing 24 gigabytes of
                             information; and examined approximately 3,000 VMMT-
                             204 maintenance documents and other reports. The investi-
                             gation concluded:




                1
                 The V-22 Osprey is a tiltrotor aircraft jointly manufactured by Bell Helicopter
                Textron, Incorporated, and The Boeing Company (Bell-Boeing), that takes off
                and lands like a helicopter. Once airborne, its engine nacelles can be rotated to
                convert it to a turboprop aircraft capable of high speed, high altitude flight.
                During the events in question, VMMT-204 was the only squadron flying the
                Marine version of the aircraft, the MV-22.


                                       14
Semiannual Report to the Congress                                                           Chapter Two




                                    •   False maintenance data and readiness records were created at the
                                        squadron. The falsification of these records was the result of
                                        pressure, perceived by the commanding officer from his
                                        superiors, to bolster readiness numbers and advance the chances
                                        of a favorable decision by the Navy to begin full-rate production
                                        of the MV-22.

                                    •   The falsification of maintenance data and readiness records was
                                        limited to the period of December 20, 2000, to January 11, 2001.

                                    •   The false maintenance data and readiness records, first created
                                        on December 20, 2000, did not contribute to either the April 8,
                                        2000, or December 11, 2000, MV-22 mishaps.

                                    •   Certain Marine Corps officers condoned the alleged falsification
                                        of maintenance data and readiness records and took no action to
                                        correct or curtail the false reporting.

                            The investigation developed evidence identifying possible criminal
                            exposure on the part of eight Marine Corps officers, including the squad-
                            ron commander. The report of investigation was presented to the Com-
                            mandant of the Marine Corps to consider appropriate action under the
                            Uniform Code of Military Justice. Nonjudicial punishment was taken by
                            the Commanding General, Marine Forces Atlantic. The squadron
                            commander and his immediate superior received letters of reprimand. A
                            squadron assistant maintenance officer received a verbal admonishment.

CRIMINAL                    The Office of Criminal Investigative Policy and Oversight (CIPO) issued
INVESTIGATIVE               two evaluation reports during this period: Evaluation of Sufficiency of
POLICY AND                  Subpoena Authority within the Department of Defense in Support of
OVERSIGHT                   General Crimes Investigations, May 15, 2001, and Evaluation of Law
                            Enforcement Deputation of DoD GS-083 (Police Officer) Personnel by
                            State and Local Authorities, June 12, 2001.

                            The subpoena authority evaluation indicated that the Military Criminal
                            Investigative Organizations lacked effective mechanisms for compelling
                            production of evidence in general crimes investigations. We recom-
                            mended that action be taken to establish additional subpoena authority
                            within the military justice system. Management concurred.

                            The deputation evaluation indicated that DoD did not follow a consistent
                            process for the use of deputized law enforcement powers. As a result, law
                            enforcement powers were expanding within DoD without justification

                                                    15
Chapter Two                                                       Semiannual Report to the Congress




                        and sufficient oversight. Management concurred with our recommen-
                        dation to require prior approval by Service Secretaries for Military
                        Department law enforcement organizations and by the Office of the
                        Secretary of Defense for other DoD law enforcement organizations,
                        before a law enforcement organization or person may be deputized. This
                        issue does not relate to the DCIS, which already has full law enforcement
                        authority.

 Voluntary              The Voluntary Disclosure Program encourages contractors to disclose
 Disclosure             potential criminal or civil fraud that may affect their contractual relation-
 Program                ship with DoD or the contractor’s responsibility under the Federal
                        Acquisition Regulation. During this reporting period, the Government
                        recovered $2.1 million under this program.

ADMINISTRATIVE          The OIG, DoD, Departmental Inquiries Office conducts investigations and
INVESTIGATIONS          also performs oversight of investigations conducted by the Military
                        Departments. Those investigations pertain to:

                             •   Allegations that members of the armed forces were referred for
                                 mental health evaluations in violation of the rights prescribed in
                                 the DoD Directive and Instruction pertaining to referrals for
                                 mental health evaluations.

                             •   Allegations of reprisal against military members, Defense
                                 contractor employees and nonappropriated fund employees.

                             •   Noncriminal allegations against senior military and civilian
                                 officials.

 Referrals for Mental   Fourteen cases closed during the reporting period contained allegations of
 Health Evaluations     procedural violations for referring military members for mental health
                        evaluations. In 8 of the 14 cases, it was substantiated that commanders
                        failed to follow the proper procedures for referring a Service member for
                        a mental health evaluation under DoD Directive 6490.1, “Mental Health
                        Evaluations of Members of the Armed Forces.” We are working with the
                        Department to find ways to improve the knowledgeability of commanders
                        regarding the Directive’s requirements.

 Whistleblower          During the reporting period, the Special Inquiries Directorate and the
 Reprisal Activity      Military Department Inspectors General received 233 complaints of
                        whistleblower reprisal. We closed 187 cases during this period. Of the 187
                        closed, 136 were closed after preliminary analysis determined further
                        investigation was not warranted, and 51 were closed after full investi-

                                              16
Semiannual Report to the Congress                                                         Chapter Two




                            gation. Of the 51 cases closed after full investigation, 5 (10 percent)
                            contained one or more substantiated allegations of whistleblower reprisal.

 Examples of                An Air Force reserve major in California was removed from his position
 Substantiated              in reprisal for reporting personnel improprieties to an inspector general
 Whistleblower              and reporting a physical assault to the base security police. The command
 Reprisal Cases             returned the major to his position and issued oral and written counselings
                            to the responsible management officials who reprised against the major. In
                            addition, the command provided training to squadron and group comman-
                            ders on the provisions of the Military Whistleblower Protection Act.

                            An Army sergeant in Germany was threatened with nonjudicial punish-
                            ment under Article 15 of the Uniform Code of Military Justice and
                            received an unfavorable noncommissioned officer evaluation report in
                            reprisal for making an Equal Employment Opportunity complaint alleging
                            racial harassment by his squad leader. Corrective action is pending.

                            An Air Force senior airman in Texas received a lowered enlisted perform-
                            ance report in reprisal for reporting a hostile work environment to an
                            inspector general. The responsible management officials who reprised
                            against the senior airman received letters of reprimand.

 Senior Official            Figures 2 and 3 (page 18) show results of activity on senior official cases
 Inquiries                  during the period. On September 30, 2001, there were 166 ongoing
                            investigations into senior official misconduct throughout the Department,
                            a significant reduction from April 1, 2001, when we reported 222 open
                            investigations. The reduction in the number of open cases is, in part, the
                            result of increased efforts throughout the Department to complete more
                            expeditiously ongoing investigations into allegations involving senior
                            officials, particularly those that had encountered delay. Those efforts
                            resulted in 365 cases closed over the last 6 months, compared to 213 case
                            closures during the previous 6-month period. The resultant number of
                            senior official investigations completed during fiscal year 2001 (578) was
                            the highest number of cases completed during a fiscal year. Of the 578
                            cases, 89 (15 percent) contained substantiated allegations.

 Examples of Cases          In response to concerns expressed by a Member of Congress, we investi-
 Involving Senior           gated allegations that a senior DoD official made unnecessary and
 Officials                  extravagant expenditures of Government funds for maintenance to his
                            official residence and that he used his enlisted aides for unauthorized
                            duties. We examined expenditures for maintenance, repair, and
                            furnishings for the residence over a 3-year period and found most of the
                            expenditures at issue were proper because they supported the official’s

                                                  17
Chapter Two                                                                                Semiannual Report to the Congress




              Nature of Substantiated Allegations Against Senior Officials
                                During 2nd Half FY 01

                                     Deceptive                        Other
                                    Statements                      Misconduct
              Misuse Gov't                                                                               Abuse of
                                        9%                             15%
               Property/                                                                                Authority/
               Resources                                                                                Favoritism
                  25%                                                                                     17%




                                                                                                Sexual Harassment/
                                                                                                    Improper
                                                     Improper                                      Relationship
                                                 Personnel Action                                       7%
                                                       27%


                         Cases Closed: 365                               Substantiated: 51

                                                        Figure 2



                                      DoD Total Senior Official Cases
                                             FY 98 - FY 01

                 600                                                                                  578

                                                                                               488
                 500                                                     455
                                    432
                                                                                402
                 400         357                         369

                                                  300
                 300

                 200
                                          94                                                                89
                 100                                           66                     69


                    0
                                   FY98                 FY99                   FY00                  FY01
                                               Opened          Closed     Substantiated



                        This chart shows the total number of senior official investigations
                                conducted in the DoD over the past 4 fiscal years.

                                                        Figure 3



                                                        18
Semiannual Report to the Congress                                                            Chapter Two




                            representational duties. We concluded that two minor purchases were
                            unnecessary because they were extravagant or exclusively for the
                            official's personal benefit. We also found that the official used his enlisted
                            aides to undertake major landscaping projects and to service personal
                            recreation equipment--duties inconsistent with DoD policy concerning the
                            use of enlisted aides. The results of the investigation were provided to
                            appropriate management officials for consideration of corrective action.

                            In another investigation, we substantiated allegations that a senior DoD
                            civilian improperly used a Government vehicle for one leg of his
                            domicile-to-duty commute, arranged official travel for primarily personal
                            reasons, conducted Government travel using first-class accommodations
                            without authorization, and used his public office for the private gain of a
                            family member. The results of the investigation were provided to appr-
                            opriate management officials for consideration of corrective action. The
                            official has since left Government service.

AUDITING                    The central internal audit offices of the DoD are the OIG, DoD, the Army
                            Audit Agency, the Naval Audit Service, and the Air Force Audit Agency.
                            Those organizations issued 233 reports during the reporting period,
                            identifying $867.4 million potential monetary benefits and assisting the
                            Department's efforts to address the high-risk areas discussed in Chapter
                            One. Appendix A lists internal audit reports by major subject area.
                            Appendices B and C list OIG, DoD, reports with potential monetary
                            benefits and statistically summarize internal audit follow-up activity,
                            respectively.

                            The Defense Contract Audit Agency (DCAA) provided financial advice
                            to contracting officers in 25,108 reports issued during the period. The cost
                            effectiveness of DoD contract auditing was again evident, as DCAA
                            reports resulted in approximately $2.8 billion in savings and cost avoid-
                            ance. Further details are at Appendix D.

 Overseas Military          At the request of the Secretary of Defense, the OIG, DoD, reviewed the
 Voting                     performance of the Military Postal Service and DoD implementation of
                            the Federal Voting Assistance Program overseas during the November
                            2000 election. We found no indication of systemic problems in handling
                            military mail, although the distances involved can stretch delivery times
                            and service to or from ships at sea poses special challenges. We also
                            concluded that the DoD Voting Assistance Program was generally well
                            designed, but could be more effectively implemented. One-third of the
                            respondents to our survey stated that, despite the Voting Assistance
                            Program, they did not understand the absentee ballot process. First time

                                                  19
Chapter Two                                                  Semiannual Report to the Congress




                    voters in particular had problems that may have led to errors like lack of
                    signatures or late requests for absentee ballots.

                    The multiplicity and inconsistency of absentee voting rules vastly
                    complicate DoD voter assistance efforts. We endorse Federal and state
                    initiatives to simplify and standardize absentee voting requirements. In
                    addition, our June 2001 report recommended several measures to improve
                    DoD assistance to voters. Management fully concurred.

 Computer Cookies   The Consolidated Appropriations Act for Fiscal Year 2001 required
                    Federal IGs to review the collecting, creating, sharing, and reviewing of
                    personally identifiable information and their computer reviewing habits at
                    Government websites. Information gathering devices include software
                    programming known as persistent cookies, third-party cookies, or web
                    bugs.

                    Our audit indicated widespread noncompliance by DoD web adminis-
                    trators with Federal and DoD policy. For example, 135 of 400 websites in
                    the audit sample used prohibited cookies or web bugs. The Department
                    agreed with the recommendations in our May 2001 report, and the unau-
                    thorized devices were removed. The OIG, DoD, prepared a Government-
                    wide summary that indicated similar problems had been uncovered by
                    auditors in most Federal agencies.

 Weapons            Our Audit Policy and Oversight report, Summary of DoD Acquisition
 Acquisition        Program Audit Coverage, September 10, 2001, highlighted the very
 Oversight          limited amount of internal audit coverage of weapons acquisition
                    programs. As of March 2001, there were 2,531 acquisition programs with
                    estimated costs of $1.4 trillion. Our survey indicated that 58 audit reports
                    addressed 129 of those programs between October 1999 and March 2001.
                    Nineteen of the reports were from the General Accounting Office, 22
                    from the OIG, DoD, and 17 from the Service audit organizations. Nearly
                    all of the audits dealt with selected aspects of programs and were not
                    intended to be comprehensive reviews. It is particularly significant that
                    only 14 of the 906 largest programs (2 percent) received evaluations of all
                    significant program elements. Although the acquisition community argues
                    generally that various forms of management oversight make independent
                    audits less necessary in the weapons acquisition area, we concluded
                    otherwise.

                    The OIG, DoD, audit plan for fiscal year 2001 reflected increased empha-
                    sis on weapons acquisition and the plans for current and future years will
                    continue that trend, resources permitting. In view of the large increases

                                          20
Semiannual Report to the Congress                                                         Chapter Two




                            planned for the overall Defense procurement effort, adequate oversight
                            during the next few years will be more important than ever.

 OIG, DoD,                  The Deputy Inspector General testified on May 1, 2001, before the
 Testimony                  Emerging Threats and Capabilities Subcommittee, Senate Armed Ser-
                            vices Committee, on National Guard Weapons of Mass Destruction Civil
                            Support Teams. The testimony was a recap of the January 2001 audit
                            report on that subject and the status of the corrective actions being taken
                            by the Department. The Deputy Inspector General noted that the program
                            was behind schedule and lacked sound planning, but expressed optimism
                            that the first 10 teams could be properly certified as being fully opera-
                            tional later in calendar year 2001. Chapter Three provides more details.

                            On May 8, 2001, the Deputy Inspector General testified before the
                            Subcommittee on Government Efficiency, Financial Management, and
                            Intergovernmental Relations, House Committee on Government Reform,
                            regarding Defense financial management. The testimony was similar to
                            the summaries of DoD financial management reform challenges in
                            Chapter One of the last IG semiannual report and this report.

INTELLIGENCE                See the Classified Annex to this report for intelligence review activities
REVIEW                      during the period, as well as a focus area discussion on Defense
                            Information Assurance.




                                                  21
Chapter Three                                                Semiannual Report to the Congress




CHAPTER THREE - RESPONDING TO TERRORISM

INTRODUCTION       The attacks on September 11, 2001, necessitated immediate response by
                   Federal law enforcement agencies, including the Defense Criminal
                   Investigative Organizations. This chapter describes the support provided
                   in the aftermath of the attacks to the Federal investigative task forces and
                   Defense leadership. We anticipate continued participation in Federal
                   counter-terrorism efforts, as well as heightened emphasis on the types of
                   fraud that could hamper military operations, such as product substitution.
                   Historically, the risk of fraud has increased during periods of hostilities.

                   The DoD audit and inspection organizations are also realigning their
                   coverage to emphasize military readiness, force protection, and homeland
                   defense.

DEFENSE CRIMINAL   The DCIS response to the terrorist attacks in New York and at the
INVESTIGATIVE      Pentagon on September 11, 2001, was immediate and continuous.
SERVICE (DCIS)     Approximately 164 agents and support personnel assisted in the investi-
                   gation at various times after the attack. Soon after American Airlines
                   Flight 77 struck the Pentagon, our agents responded to assist in initial
                   search and rescue efforts and to begin the monumental task of coordi-
                   nating investigative efforts. As a participant in the FBI investigative task
                                         force, the DCIS was instrumental in setting up and
                                         manning the Joint Operations Center at nearby Fort
                                         Myer and the DoD Command Post on the scene.
                                         DCIS agents, including technical services agents,
                                         played an integral role in the evidence recovery and
                                         crime scene examination teams. Other agents served
                                         in the critical role of sifting through debris for evi-
                                         dence and human remains. We also interviewed
                                         potential witnesses and followed up on countless
                                         investigative leads. The DoD Hotline office com-
                                         menced a 24-hour operation in support of the joint
                                         effort. DCIS agents from New York, Connecticut,
                                         Massachusetts, New Jersey, and Pennsylvania
                                         worked in similar roles with regard to the World
                                         Trade Center scene.

                   We also provided assistance at the United Airlines crash scene in
                   Pennsylvania. Working with the FBI task force, DCIS agents arranged for
                   a temporary morgue at a National Guard Center and for a storage site for
                   recovered aircraft pieces at an Army Reserve Center.

                                         22
Semiannual Report to the Congress                                                           Chapter Three




                                          The DCIS offices nationwide are providing investigative
                                          support to the FBI as part of the continuing task force
                                          investigations into the September 11 attacks. Agents in all
                                          regions of the country participated in interviews and arrests,
                                          served subpoenas, conducted record checks, searches and
                                          surveillance, assisted in essential security operations, and
                                          provided computer forensics support.

                                          In response to the Attorney General's plan to counter
                                          terrorism, DCIS offices nationwide have joined anti-
                                          terrorism task forces in judicial districts serving major cities.
                                          Similarly, the DCIS continues to provide agents and support
                            in the area of computer network defense. The DCIS also plays an active
                            role in the DoD Joint Task Force for Computer Network Operations and
                            the National Information Protection Center at the Department of Justice.

U.S. ARMY                   The USACIDC is supporting Army commanders and Federal law
CRIMINAL                    enforcement organizations following the recent terrorist incidents. The
INVESTIGATIVE               USACIDC has increased security for all its designated top DoD high risk
COMMAND                     personnel and is deploying additional Active Duty and Reserve
(USACIDC)                   Component agents to augment this effort. Further, vulnerability assess-
                            ments have been conducted for all Army four-star generals, and advice
                            and/or security support to their staffs have been provided.

                            The USACIDC supported an interagency and joint military law enforce-
                            ment investigation at the Pentagon site with over 20 agents on the scene
                            processing evidence and conducting interviews. The USACIDC also
                             established liaison with Mortuary Affairs and Armed Forces Medical
                             Examiner officials to assist in the processing of remains, assigned
                             Liaison Officers to the FBI’s Joint Terrorism Task Force Headquarters
                             and Joint Operations Centers in the District of Columbia, and has a full-
                             time criminal intelligence analyst in the Army Anti-terrorism Opera-tions
                             and Intelligence Cell. In New York, the FBI and NYPD established a
                             secondary command center in the Fort Hamilton USACIDC Office.

                            The USACIDC offices Army-wide are participating in installation force
                            protection councils, disseminating domestic threat intelligence, and
                            coordinating with civilian police and Federal law enforcement agencies.




                                                   23
Chapter Three                                              Semiannual Report to the Congress




NAVAL CRIMINAL   In response to the terrorist attacks, the NCIS established a task force based
INVESTIGATIVE    in the NCIS Anti-Terrorist Alert Center to collect and disseminate
SERVICE (NCIS)   intelligence and investigative information related to the incidents at the
                 World Trade Center and the Pentagon. At the Pentagon, a Major Crime
                 Response Team comprised of more than 20 NCIS personnel assisted with
                                                        the search for survivors, evidence
                                                        collection, and crime scene documen-
                                                        tation. The NCIS continues to provide
                                                        protective service support to the
                                                        Secretary of the Navy, the Chief of
                                                        Naval Operations, and the Comman-
                                                        dant of the Marine Corps. Agents are
                                                        providing around-the-clock support to
                                                        the Director of Naval Intelligence, the
                                                        Chief of Naval Operations, and the
                                                        Emergency Operation Center at the
                                                        Naval District Washington. Agents
                                                        were also deployed to the Joint Task
                                                        Force, Civil Support, Joint Forces
                                                        Command, for duty in New York City.

                 The NCIS agents are assisting the FBI at Joint Terrorist Task Forces in
                 Washington, D.C., New York City, Boston, Dallas, Norfolk, Los Angeles,
                 San Diego, Seattle, and Pittsburgh, and at the FBI’s Strategic Information
                 Operation Center in Washington, D.C. The NCIS has been actively
                 engaged with the FBI in coordinating worldwide investigative efforts.

                 Additionally, the NCIS established a multi-disciplinary Counter Terrorism
                 Task Force (CTTF). A Command Center for the CTTF will ensure timely
                 communication and coordination with other agencies.

                 Sixteen agents are being deployed on temporary duty as a Special Contin-
                 gency Group to augment the NCIS Middle East Field Office, Bahrain, in
                 support of Operation Enduring Freedom. Many of these agents will be
                 integrated into various USN Central Command staff functions and will be
                 responsible for counterintelligence assistance. Additional augmentation of
                 the Bahrain Field Office will occur as necessary.

                 The NCIS continues its mission to detect, identify, deter, and interdict
                 multiple threats to the Department of the Navy, both domestically and
                 abroad.




                                       24
Semiannual Report to the Congress                                                       Chapter Three




AIR FORCE OFFICE            Immediately after the tragic events of September 11, 2001, the AFOSI
OF SPECIAL                  33rd Field Investigative Squadron (FIS) at Andrews Air Force Base,
INVESTIGATIONS              Maryland, became fully engaged in joint investigative operations in the
(AFOSI)                     Washington, D.C., metropolitan area. Teams worked around the clock at
                            the Pentagon and elsewhere, providing the full spectrum of AFOSI
                            capability. This included crime scene processing, protective services, and
                            counterintelligence efforts. The 33rd FIS was heavily supported and
                            augmented with Headquarters AFOSI personnel during this emergency.
                            About 88 agents participated in the Pentagon investigation.

                            The AFOSI agents were engaged in FBI Joint Terrorism Task Forces at
                            nine major cities. For example, AFOSI provided immediate augmentation
                            to the FBI Task Force in New York with 10 agents. In addition, 12 agents
                            supported national level efforts such as the HQ FBI Command, the
                            Defense Intelligence Agency Threat Warning Center, the FBI National
                            Infrastructure Protection Center, National Security Agency, and the
                            Central Intelligence Agency Counterterrorism Center. An additional 62
                            agents provided 24-hour support to the Air Force. Of those, 18 provided
                            protective services to senior Air Force leaders, 20 were dedicated to the
                            AFOSI Anti-Terrorism Intelligence Cell, 20 were dedicated to the AFOSI
                            Crisis Action Team (CAT), and 4 forensics specialists were deployed to
                            Dover Air Force Base, Delaware, to process evidence and identify
                            remains.

                            All AFOSI Regions established 24-hour operations to facilitate the flow
                            of information. Region commanders coordinated requirements for
                            resources and requests for assistance from other agencies through the HQ
                            AFOSI Operations Center.

                            Priority was placed on activities that ensured continued protection of our
                            forces. The USAF commanders, as well as Threat Working Groups, were
                            kept informed of developments. Hourly status updates were provided to
                            the Air Force Operation Center for the Secretary of the Air Force and the
                            Chief of Staff. The AFOSI provided vetted, fact-based data to senior
                            decision-makers, such as names/backgrounds of subjects, up-to-date
                            information on the hijackings and number of aircraft involved, modus
                            operandi of subjects, passenger manifests, and factual information on
                            terrorist acts reported by the media.

                            At the headquarters level, the Director of Operations established three
                            major cells, all working 24/7. The CAT was the Operations Center
                            Command and Control Function and the Investigative Leads Control
                            Center. The AFOSI Intelligence/Analysis Cell focused on analyzing

                                                 25
Chapter Three                                           Semiannual Report to the Congress




                volumi-nous data received and intelligence reports. This cell’s mission
                was to provide threat assessments for USAF senior leadership. The
                Readiness/Mobility Cell worked issues concerning deployment of AFOSI
                personnel, readiness, war planning, and reserve activation issues, among
                others.




AUDIT AND       When Operation Enduring Freedom began, the OIG, DoD, formed a
INSPECTION      Special Oversight Coordination Group to ensure close coordination of
ACTIVITIES      audits and inspections related to homeland defense, chemical and
                biological defense readiness, and matters related to counterterrorist
                military operations. Representatives of the OIG, DoD, the Military
                Department audit and inspection agencies, the Joint Staff, and the General
                Accounting Office generally meet weekly to identify the numerous
                pertinent requests for oversight coverage received from Congress and
                DoD leaders, determine the most efficient mode of responding without
                burdening the warfighters, and expedite feedback to the requestors of
                audits and inspections. This approach proved highly useful during the
                Gulf War.

                We are taking similar measures to coordinate the redirection and
                reprioritization of intelligence oversight activities, as discussed in the
                classified supplement to this report. In that classified annex, we also


                                     26
Semiannual Report to the Congress                                                        Chapter Three




                            discuss information assurance, which has assumed even greater
                            importance during the ongoing hostilities.

                            In January 2001, we reported that the program to establish 27 National
                            Guard Weapons of Mass Destruction - Civil Support Teams was behind
                            schedule; none of the first increment of 10 teams was able to earn certifi-
                            cation as operationally ready; and the program required restructuring and
                            redirection. The Department undertook a major effort to improve the
                            program, and OIG, DoD, auditors participated on a working group that
                            oversaw rigorous evaluation and corrective action for each team. We are
                            pleased to be able to report that all 10 teams are now operationally ready
                            and assisting in responses to incidents involving potentially hazardous
                            substances. An additional 22 teams are being equipped and trained.
                            Although the future of this program remains contentious, the availability
                            of the certified teams should be helpful to homeland defense planners and
                            coordinators.




                                                  27
PCIE/ECIE Awards                                          Semiannual Report to the Congress




PCIE/ECIE AWARDS

                   The Fourth Annual President’s Council on Integrity and
                   Efficiency/Executive Council on Integrity and Efficiency
                   (PCIE/ECIE) Awards Ceremony was held on October 17,
                   2001, in Washington, D.C. Numerous Office of the Inspector
                   General, Department of Defense, employees received these
                   prestigious awards. We salute the following award winners.

AWARDS FOR         Acquisition Program Audits - John E. Meling, Harold C.
EXCELLENCE -       James, Douglas P. Neville, and Jack D. Snider
AUDIT
                   For exceptional performance in conducting a series of audits of
                   acquisition program management that identified nearly half a billion
                   dollars in funds that could be put to better use.

                   Personnel Security Program Audits - R. Keith West and
                   Lois A. Therrien

                   For exceptional performance in conducting a series of audits of the
                   Personnel Security Program that resulted in the establishment of a
                   uniform priority system for security clearance investigations.

AWARDS FOR         Interagency Review of the Commerce Control List
EXCELLENCE -       and the U.S. Munitions List - Evelyn Klemstine and Tim
EVALUATION         Moore

                   For exceptional performance as part of an interagency team reviewing the
                   Commerce Control List and the U.S. Munitions List.

                   Review of Overseas Absentee Ballots - Michael A.
                   Joseph and Timothy J. Tonkovic

                   For exceptional performance in evaluating DoD’s handling of the
                   overseas absentee ballots from the 2000 Presidential election.




                                        28
Semiannual Report to the Congress                                                  PCIE/ECIE Awards




                            PCIE Information Technology Roundtable Survey of
                            Information Technology Resources and Activities -
                            Kathryn M. Truex, Robert M. Anastasi, and Anella J. Oliva

                            For exceptional performance as part of the PCIE Information Technology
                            Roundtable Committee team that conducted an extensive analysis of the
                            OIG community in order to provide a general understanding of the
                            community’s information technology resource and needs.

Awards for                  Anthrax Vaccine Investigation Task Force - William J.
Excellence - Multi-         Strauch, Thomas E. Trela, Glenn Caiola, Christopher Hale,
Discipline                  Timothy Robertson, and Cindy Stroot

                            For the outstanding multi-disciplinary effort and teamwork exemplified in
                            the investigation involving the procurement of the anthrax vaccine for the
                            Department of Defense.




                                                 29
Appendix A                                                                 Semiannual Report to the Congress


                        APPENDIX A*
 REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS

  Excludes base level reports issued by the Air Force Audit Agency. Includes evaluation reports
  issued by the OIG, DoD.

  Copies of reports may be obtained from the appropriate issuing office by calling:

             OIG, DoD                                    Army Audit Agency
             (703) 604-8937                              (703) 681-9863

             Naval Audit Service                         Air Force Audit Agency
             (202) 433-5737                              (703) 696-8027



                      Summary of Number of Reports by Issue Area
                             April 1 - September 30, 2001

                                            OIG, DoD           Military Depts.                   Total
 Acquisition Program                           10                         8                           18
 Construction and Installation                   2                       10                           12
 Support
 Contractor Oversight                          10                        15                           25
 Environment                                     1                        3                            4
 Finance and Accounting                        38                        48                           86
 Health Care and Morale                          3                       11                           14
 Information Technology                        16                         9                           25
 Intelligence**                                  1                        5                            6
 Logistics                                       6                       28                           34
 Other                                           6                        2                            8
 Total**                                       93                      139                          232
 The OIG, DoD, also issued 1 report and the Military Department audit agencies issued 6 reports on audit
  oversight reviews.



 * Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(6).
 ** For further information on intelligence-related reports, including those issued by other Defense
 agencies, refer to the classified annex to this report.




                                                       30
Semiannual Report to the Congress                                                            Appendix A


                                    Army Audit Agency                   D-2001-134 Bulk Fuel Infra-
ACQUISITION                         AA01-341 Global Combat              structure Military Construction
PROGRAM                             Support System-Army Program         Project Review Process: Pacific
                                    Contracts (6/22/01)                 (6/4/01)
(Includes issues relating to                                            Army Audit Agency
                                    AA01-442 Initial Brigade
acquisition management.)
                                    Combat Team Materiel Require-       AA01-235 Replacement
                                    ments (9/21/01)                     Options for the Fort Shafter
IG, DoD                                                                 Army Education Center
D-2001-103 Acquisition of the       Naval Audit Service                 (4/20/01)
Joint Helmet Mounted Cueing         N2001-0031 Marine Corps
System (4/18/01)                    Total Ownership Cost-               AA01-271 Base Closure and
                                    Reduction Plans (6/19/01)           Realignment Implementation--
D-2001-106 Powered-Low Cost                                             Stratford Army Engine Plant
Autonomous Attack System            N2001-0036 Navy's Reliability       (5/9/01)
Advanced Technology                 Assessment Process for Air-
Demonstrator (5/7/01)               Launched Precision-Guided           AA01-333 Army Stationing and
                                    Munitions (7/6/01)                  Installation Plan (6/29/01)
D-2001-111 Acquisition of the
Airborne Laser Mine Detection       Air Force Audit Agency              AA01-363 Space Utilization of
System (5/2/01)                                                         Storage and Warehouse
                                    00064001 Space Based Infrared       Facilities (7/31/01)
D-2001-115 Reconnaissance,          System Integrated Product Team
Surveillance, and Targeting         Participation (7/16/01)             AA01-373 Army Stationing and
Vehicle Program (5/8/01)                                                Installation Plan (7/27/01)
                                    00064002 Airborne Laser
D-2001-124 U.S. Special             Program Integrated Product          AA01-374 Space Utilization of
Operations Command Use of           Team Participation (Phase II)       Classroom and Training
Alternative or Compensatory         (4/17/01)                           Facilities (7/30/01)
Control Measures
(CLASSIFIED) (5/18/01)              01064024 Memorandum                 AA01-398 Space Utilization of
                                    Report, Acquisition of Theater      Storage and Warehouse
D-2001-132 Funding and              Battle Management Core              Facilities (8/13/01)
Logistics for the Joint Helmet      System (7/30/01)
Mounted Cueing System                                                   AA01-399 Space Utilization of
(5/31/01)                           99064010 Tunner Loader              Administrative Facilities
                                    Acquisition Program                 (8/17/01)
D-2001-138 Acquisition of the       Management (5/10/01)
Joint Biological Point Detection                                        AA01-420 Army Forestry
System (6/13/01)                                                        Program (8/22/01)
                                    CONSTRUCTION
D-2001-164 Implementation of                                            Air Force Audit Agency
                                    AND INSTALLATION
a Cost-Accounting System for                                            01052013 Air Force Contract
Visibility of Weapon Systems        SUPPORT                             Augmentation Program Support
Life-Cycle Costs (8/1/01)                                               for Operations SUSTAIN HOPE
                                    (Includes construction and all      and NOBLE ANVIL (8/9/01)
D-2001-176 Survey of                activities related to maintenance
Acquisition Manager                 and support of installations.)
Experience Using the DoD Joint                                          CONTRACTING
Technical Architecture in the
Acquisition Process (8/22/01)
                                    IG, DoD                             OVERSIGHT
                                    D-2001-104 Bulk Fuel Related
D-2001-178 Summary of DoD           Projects at Naval Station Rota      (Includes issues relating to
Acquisition Program Audit           and Moron Air Base, Spain           contract administration and
Coverage (9/10/01)                  (4/19/01)


                                                   31
Appendix A                                                        Semiannual Report to the Congress


oversight, commercial activities,   Army Audit Agency                AA01-395 Energy Savings
and product quality assurance.)     AA01-239 Administering           Performance Contracts: Walter
                                    Service Contracts--Contract      Reed Army Medical Center,
IG, DoD                             DAAH03-00-D-0004 (4/3/01)        Washington, DC (9/14/01)
D-2001-094 Management of                                             AA01-466 Energy Savings
Contracts for F110 Engine           AA01-240 Administering
                                    Service Contracts--Contract      Performance Contracts: U.S.
Procurements (4/4/01)                                                Army Infantry Center and
                                    DAAH03-00-C-0001 (4/3/01)
                                                                     Fort Benning, Fort Benning, GA
D-2001-102 Service Contracts                                         (9/20/01)
at the National Security Agency     AA01-241 Administering
(CLASSIFIED) (4/17/01)              Service Contracts--Contract
                                    DAAH03-00-D-0001 (4/3/01)        AA01-471 Energy Savings
                                                                     Performance Contracts: U.S.
D-2001-118 Public/Private                                            Army Joint Readiness Training
Competition at Lackland Air         AA01-304 Administering
                                    Service Contracts--Contract      Center and Fort Polk, Fort Polk,
Force Base (FOR OFFICIAL                                             LA (9/24/01)
USE ONLY) (5/14/01)                 DAAH01-00-C-0006 (Patriot
                                    Weapon System) (5/22/01)
                                                                     Air Force Audit Agency
D-2001-125 Procurement
Actions Related to the 3.0          AA01-305 Administering           00061010 Contract Cost
Managed Care Support Services       Service Contracts--Contract      Performance Following Office
Request for Proposal (5/22/01)      DAAH01-99-C-0138 (Hawk           of Management and Budget
                                    Missile Maintenance And          Circular A-76 Review (4/20/01)
D-2001-129 Contracting              Repair) (5/22/01)
Officer Determinations of Price
Reasonableness When Cost or         AA01-317 Army Space              ENVIRONMENT
Pricing Data Were Not Obtained      Program Office (5/24/01)
(5/30/01)                           AA01-366 Administering           (Includes environmental issues
                                    Service Contracts--Contract      related to cleanup, compliance,
D-2001-150 DoD Review of
                                    DAAH03-97-C-0025 (Dining         conservation, pollution
Flight Safety Critical Threaded
Fasteners and Components            Facility) (7/3/01)               prevention, technology, safety,
(6/25/01)                                                            and health.)
                                    AA01-377 Administering
D-2001-167 Independent              Service Contracts--Contract      IG, DoD
Review of the Cost Comparison       DAAH03-00-D-0003 (Custodial
                                    Services) (7/17/01)              D-2001-105 Implementation of
Study of Military Retired and                                        National Defense Center for
Annuitant Pay Functions             AA01-378 Administering           Environmental Excellence
(8/2/01)                            Service Contracts--Contract      (4/25/01)
D-2001-171 Industrial Prime         DAAH01-97-C-0218
                                    (Command and Control             Army Audit Agency
Vendor Program at the Naval
Aviation Depot - Cherry Point       Systems) (7/18/01)               AA01-244 Remedial Activities
(8/6/01)                                                             at the Linde Site (4/16/01)
                                    AA01-382 Administering
D-2001-173 Independent              Service Contracts--Contract      AA01-276 Alternative Fuel
Review of the Defense Finance       DAAH03-99-D-0005 (Grounds        Vehicle Program (5/23/01)
and Accounting Service Cost         Maintenance) (7/31/01)
Comparison Study of Civilian                                         Naval Audit Service
                                    AA01-383 Administering
Pay Function (8/14/01)              Service Contracts--Contract      N2001-0041 Credit Card
                                    DAAH03-99-D-0007 (Base           Procurements of Hazardous
D-2001-189 Multiple Award                                            Materials (8/10/01)
Contracts for Services (9/30/01)    Operations) (9/5/01)




                                                  32
Semiannual Report to the Congress                                                        Appendix A


                                    D-2001-116 Compilation of the    D-2001-154 Beneficiary Data
FINANCE AND                         FY 2000 Financial Statements     Supporting the DoD Military
ACCOUNTING                          for Other Defense Organiza-      Retirement Health Benefits
                                    tions-General Funds (5/8/01)     Liability Estimate (7/5/01)
(Includes finance and               D-2001-117 Management            D-2001-155 Compilation of the
accounting issues, including all    Controls Over the FY 2000        FY 2000 Navy Working Capital
issues relating to the Chief        National Drug Control Program    Fund Financial Statements
Financial Officers (CFO) Act.)      Funds Managed Through the        (7/3/01)
                                    DoD Central Transfer Account
IG, DoD                             (5/10/01)                        D-2001-156 Air Force FY 2000
                                                                     Financial Reporting of Oper-
D-2001-097 Preparing                D-2001-122 Journal Vouchers      ating Materials and Supplies
Financial Reports for Marine        for FY 2000 Department of the    (7/5/01)
Corps Appropriations (4/12/01)      Navy General Fund Financial
                                    Reporting (5/16/01)              D-2001-158 Compilation of the
D-2001-099 Use of Contract                                           FY 2000 Army General Fund
Authority for Distribution          D-2001-123 Hotline Allega-       Financial Statements at the
Depots by the Defense Logistics     tions Regarding Accounting for   Defense Finance and
Agency (4/16/01)                    the Defense Information          Accounting Service Indianapolis
                                    Systems Agency Working           (Sustaining Forces) (7/13/01)
D-2001-100 Promptness and           Capital Fund (5/21/01)
Completeness of FYs 2000 and                                         D-2001-159 Promptness and
2001 DoD Payments to the U.S.       D-2001-126 Financial Reporting   Completeness of FY 2001
Treasury for Water and Sewer        of DLA-Owned Bulk Petroleum      Fourth Quarter DoD Payments
Services Provided by the            Products (5/23/01)               to the U.S. Treasury for Water
District of Columbia (4/13/01)                                       and Sewer Services Provided by
                                    D-2001-135 Prevalidation of      the District of Columbi
D-2001-107 Accounting Entries       Intergovernmental Transactions   (7/13/01)
Made by the Defense Finance         (6/6/01)
and Accounting Service Omaha                                         D-2001-160 Accounting for
to U.S. Transportation              D-2001-139 Compiling and         Economy Act Orders by the
Command Data Reported in            Reporting FY 2000 Navy           Navy Working Capital Fund
DoD Agency-Wide Financial           Working Capital Fund Intra-      Organizations (7/18/01)
Statements (5/2/01)                 governmental Transactions
                                    (6/18/01)                        D-2001-161 Unliquidated
D-2001-108 Recognition of                                            Obligations for Air Force-
Revenues and Expenses in the        D-2001-144 Financial Manage-     Funded Projects Administered
Defense Business Management         ment of the Weapons of Mass      by the Naval Facilities
System (4/27/01)                    Destruction Consequence          Engineering Command
                                    Management Program (6/20/01)     (7/26/01)
D-2001-109 DoD Payroll With-
holding Data for FY 2000            D-2001-146 Inventory Valua-      D-2001-162 Accounting Entries
(4/27/01)                           tion at the Defense Supply       Made in Compiling the FY 2000
                                    Center Philadelphia (6/21/01)    Air Force General Funds
D-2001-110 Defense Health                                            Financial Statements (7/26/01)
Program Funds Administered as       D-2001-148 Automated Trans-
Part of the TRICARE Program         portation Payments (6/22/01)     D-2001-163 Accounting Entries
(4/30/01)                                                            Made in Compiling the FY 2000
                                    D-2001-153 Pentagon Reserva-     Financial Statements for the
D-2001-114 DoD Contractor           tion Maintenance Revolving       Working Capital Funds of the
Debt Collection Process (5/7/01)    Fund (7/2/01)                    Air Force and Other Defense
                                                                     Organizations (7/26/01)




                                                  33
Appendix A                                                          Semiannual Report to the Congress


D-2001-165 Defense Depart-       AA01-151 National Science             AA01-309 Internal Controls
mental Reporting System–         Center Special Fund Financial         Over Selected Equity Accounts-
Audited Financial Statements     Statement (9/25/01)                   Army Working Capital Fund FY
(8/3/01)                                                               00 Financial Statements
                                 AA01-154 Recommended                  (6/8/01)
D-2001-169 United States         Adjustments to the Army
Special Operations Command’s     Working Capital Fund FY 00            AA01-310 Army's General
Reporting of Real and Personal   Financial Statements Version          Fund Principal Financial State-
Property Assets on the FY 2000   Two (5/14/01)                         ments for Fiscal Year 2000--
DoD Agency-Wide Financial                                              Fund Balance with Treasury and
Statements (8/2/01)              AA01-237 Army's General               Statement of Budgetary
                                 Fund Principal Financial State-       Resources (6/19/01)
D-2001-170 U.S. Transporta-      ments for Fiscal Year 2000--
tion Command’s Reporting of      Wholesale Munitions Reporting         AA01-319 Corps of Engineers
Property, Plant, and Equipment   Followup Issues (5/3/01)              Financial Management System--
Assets on the FY 2000 DoD                                              General and Application
Agency-Wide Financial            AA01-253 Army's General               Controls (6/26/01)
Statements (8/3/01)              Fund Principal Financial State-
                                 ments for Fiscal Year 2000--          AA01-329 Army's General
D-2001-172 Data Supporting       Progress in Correcting Real           Fund Principal Financial State-
the Environmental Liability      Property Reporting & Internal         ments for Fiscal Year 2000--
Reported on the FY 2000          Control Weaknesses (5/1/01)           Adjustments to Financial
Financial Statements (8/10/01)                                         Information at DFAS - St. Louis
                                 AA01-256 Financial Manage-            (6/29/01)
D-2001-174 FY 2000 DoD           ment of the Assembled Chemi-
Superfund Financial Transac-     cal Weapons Assessment                AA01-332 Army's General
tions (8/16/01)                  Program (5/3/01)                      Fund Principal Financial State-
                                                                       ments for Fiscal Year 2000--
D-2001-177 Compilation of the    AA01-257 Army's General               Financial Reporting of
FY 2000 Army Working Capital     Fund Principal Financial State-       Liabilities: Data Collection and
Fund Financial Statements        ments for Fiscal Year 2000-           Compilation (6/29/01)
(8/31/01)                        Supplemental Stewardship
                                 Reporting of National Defense         AA01-400 Internal Controls
D-2001-180 Financial Informa-    Equipment (5/10/01)                   Over Selected Equity Accounts,
tion Compiled by DoD Field                                             Wholesale Supply Operations--
Accounting Sites (9/13/01)       AA01-258 Army's General               Army Working Capital Fund FY
                                 Fund Principal Financial              00 Financial Statements
D-2001-181 Compilation of the    Statements for Fiscal Year 2000-      (8/10/01)
FY 2000 DoD Agency-Wide          -Financial Reporting of Army
Financial Statements (9/19/01)   General Equipment (5/22/01)           AA01-402 Internal Controls
                                                                       Over Selected Equity Accounts,
D-2001-185 FY 2000 U.S.          AA01-270 Consigned                    Depot Maintenance and
Army Corps of Engineers          Inventory--Army Working               Ordnance--Army Working
Obligations for DoD              Capital Fund FY 00 Financial          Capital Fund FY 00 Financial
Component Contracts (9/21/01)    Statements (5/14/01)                  Statements (8/13/01)
D-2001-188 Revised DoD           AA01-274 Accounts Payable             AA01-416 Quarterly Review of
Progress Payment Practices       (7/23/01)                             Unliquidated Obligations for the
(9/27/01)                                                              Chemical Demilitarization
                                 AA01-286 Financial Manage-            Program (8/29/01)
Army Audit Agency                ment of the Army's Distance
AA01-140 The Discontinue         Learning Program (6/20/01)            AA01-423 Compilation Process
Research Process (5/31/01)                                             FY 00 Statement Of Financing--
                                                                       Army Working Capital Fund
                                                                       (8/27/01



                                                34
Semiannual Report to the Congress                                                            Appendix A


AA01-443 Compilation of             Air Force Audit Agency              01053012 Revenue and Other
Army Working Capital Fund FY        00052016 Financial Accounting       Financing Sources - Resources
00 1307 Accounting Report           for Relocation of the 126th Air     Provided, FY 2000 (8/24/01)
(9/17/01)                           Refueling Wing and Related          01053013 Military Personnel
Naval Audit Service                 Units (8/8/01)                      Costs, FY 2000 (7/26/01)
N2001-0023 Department of the        00053001 Accounting for             01053014 Civilian Pay, FY
Navy Working Capital Fund           Selected Assets and Liabilities -   2000 (7/23/01)
Inventory Valuation (5/9/01)        Fund Balance With Treasury,
                                    FY 2000 (7/26/01)                   01054010 Office of Special
N2001-0025 Financial Records                                            Investigation Confidential
of Selected Navy Working            00053005 Accounting for Air         Investigative Contingency
Capital Fund Activities Closed      Force Liabilities, FY 2000          Funds (9/4/01)
by the Base Realignment and         (8/31/01)
Closure Commission (5/22/01)                                            01064018 Memorandum
                                    00053006 Accounting for Air         Report, Pacific Air Forces'
N2001-0029 Department of the        Force Real Property, FY 2000        Programming and Budgeting
Navy Principal Statements for       (8/31/01)                           Actions Associated With Office
FY 2000: Feeder Systems and                                             of Management and Budget
Interfaces (6/1/01)                 00053007 Revenue and Other
                                    Financing Sources - Obligations,    Circular A-76 Reviews
N2001-0033 FY 2000 Depart-          FY 2000 (9/18/01)                   (9/21/01)
ment of the Navy General Fund                                           99068009 Selected General
Financial Statements: Navy          00053008 Supplementary
                                    Stewardship Reporting, FY           Ledger Accounts Impacting Air
Problem Disbursement                                                    Force Working Capital Fund,
Resolution Process (6/28/01)        2000 (8/10/01)
                                                                        FY 1999 Budgetary Resources
N2001-0034 Department of the        00054003 Non-Federal                (4/2/01)
Navy Working Capital Fund FY        Reimbursements (4/30/01)
2000 Personal Property
(6/28/01)                           00054006 Air Force Restora-         HEALTH CARE AND
                                    tion Information Management         MORALE ISSUES
N2001-0035 FY 2000 General          System Controls (5/18/01)
Fund Financial Accounting                                               (Includes health care issues such
Performed by Defense Finance        00054030 Section 363
                                    Inventory of Property, Plant, and   as military treatment facilities
and Accounting Service Norfolk
(7/3/01)                            Equipment (6/15/01)                 and TRICARE and morale
                                                                        issues such as commissaries,
N2001-0038 Navy Obligations         00066013 Stock Number User          nonappropriated funds, human
Recorded in the Standard            Directory Controls (6/21/01)        resource management, compen-
Accounting and Reporting                                                sation, and other quality of life
                                    00068002 Air Force Working
System (7/18/01)                                                        issues.)
                                    Capital Fund FY 2000
N2001-0039 Department of the        Collections and Disbursements
                                    (7/13/01)                           IG, DoD
Navy Working Capital Fund FY
2000 Marine Corps Inventory                                             D-2001-142 The Gulf War
                                    00068023 Air Force Working          Nuclear, Biological, and Chemi-
(7/25/01)
                                    Capital Fund, FY 2000 State-        cal Lessons Learned (6/19/01)
N2001-0040 Implementing the         ment of Budgetary Resources -
Defense Property                    Selected Wholesale Supply           D-2001-145 Overseas Absentee
Accountability System at Navy       General Ledger Accounts             Ballot Handling in DoD
Working Capital Fund Activities     (9/21/01)                           (6/22/01)
(8/01/01)




                                                   35
Appendix A                                                            Semiannual Report to the Congress


D-2001-147 Disposition of                                                D-2001-137 Certification of the
Insurance Allotment Payments       INFORMATION                           Defense Civilian Personnel Data
(6/21/01)                          TECHNOLOGY                            System (6/7/01)

Army Audit Agency                  RESOURCES                             D-2001-141 Allegations to the
AA01-184 Bingo Operations                                                Defense Hotline on the Defense
(7/24/01)                          (Includes automated systems;          Security Assistance Manage-
                                   information technology                ment System (6/19/01)
AA01-267 Morale, Welfare and       resources; and command,
Recreation Activities--Financial                                         D-2001-166 Defense Joint
                                   control and communications            Military Pay System Security
Controls (5/1/01)                  (c3) systems.)                        Functions at Defense Finance
AA01-327 Nonappropriated                                                 and Accounting Service Denver
Fund Payroll for Local             IG, DoD                               (8/3/01)
Nationals (6/28/01)                D-2001-095 Controls for the
                                                                         D-2001-168 Acquisition
                                   Electronic Data Interchange at
AA01-479 Nonappropriated                                                 Management of the Global
                                   the Defense Finance and
Fund Payroll (9/25/01)                                                   Transportation Network (8/2/01)
                                   Accounting Service Columbus
                                   (4/6/01)                              D-2001-175 Application of
Naval Audit Service
                                                                         Year 2000 Lessons Learned
N2001-0022 Quality Assurance       D-2001-096 Management of
                                                                         (8/22/01)
Review of Selected Regions of      Information Technology Equip-
Marine Corps Nonappropriated       ment, Office of the Secretary of      D-2001-182 Information
Fund Audit Service (4/30/01)       Defense (4/9/01)                      Assurance Challenges – A
                                                                         Summary of Results Reported
N2001-0030 Management of           D-2001-101 Controls Over
                                                                         April 1, 2000 Through
the Navy's Individual Ready        Electronic Document Manage-
                                                                         August 22, 2001 (FOR
Reserve Program (6/7/01)           ment (4/16/01)
                                                                         OFFICIAL USE ONLY)
                                   D-2001-112 Acquisition                (9/19/01)
N2001-0032 Opportunities
Exist to Expedite Medical Board    Management of the Joint
                                                                         D-2001-183 Implementation of
Processing (6/26/01)               Personnel Adjudication System
                                                                         DoD Information Security
                                   (5/5/01)
                                                                         Policy for Processing
Air Force Audit Agency
                                   D-2001-121 Use of the DoD             Accomplished at Defense
00051005 Private Organizations     Joint Technical Architecture in       Enterprise Computing Centers
Supporting Air Force Field         the Acquisition Process               (9/19/01)
Museums and Heritage Centers       (5/14/01)
(5/8/01)                                                                 D-2001-184 FY 2001 DoD
                                   D-2001-127 Data Reliability           Information Security Status for
00051011 Followup Audit,           Assessment Review of                  Government Information
Third Party Collection Program     win.Compare2 Software                 Security Reform (9/19/01)
(4/26/01)                          (5/23/01)
                                                                         Army Audit Agency
01051015 Third Party Collec-       D-2001-130 DoD Internet               AA01-314 National Guard
tion Program - Pharmaceuticals     Practices and Policies (5/31/01)      Bureau Dedicated Fiber Optics
(8/8/01)
                                                                         Network Project (6/5/01)
                                   D-2001-136 Defense Clearance
01058017 Air Force Security        and Investigations Index              AA01-362 Internet Access for
Forces Contingency Deploy-         Database (6/7/01)                     Selected Standard Army
ment Training (8/31/01)
                                                                         Management Information
                                                                         Systems (6/29/01)




                                                  36
Semiannual Report to the Congress                                                            Appendix A


Naval Audit Service                 Naval Audit Service                 D-2001-131 Items Excluded
N2001-0047 Enterprise               N2001-0028 Emergency and            From the Defense Logistics
Resource Planning Data Con-         Extraordinary Expenses at the       Agency Defense Inactive Item
version Validity at Space and       Office of Naval Intelligence        Program (5/31/01)
Naval Warfare Systems Center,       (CLASSIFIED) (5/31/01)              D-2001-149 Coordinating and
San Diego, CA (9/28/01)                                                 Tracking of Commercial
                                    N2001-0037 Cash Transfers
Air Force Audit Agency              (CLASSIFIED) (7/13/01)              Containers in Korea (6/22/01)

00058009 Local Telephone            Air Force Audit Agency              D-2001-186 Accountability and
Number Requirements (9/4/01)                                            Control of Materiel at the
                                    01058012 Followup Audit,            Tobyhanna Army Depot –
00066006 Implementation of          Senior Year and Distributed         Stockage of Communications-
Network Management System/          Common Ground System                Electronics Materiel (9/21/01)
Base Information Protection         Financial Management
Program (5/1/01)                    (5/17/01)                           D-2001-187 Defense Logistics
                                                                        Agency Items Supporting
00066030 Air Force Use of           01058015 Distributed Common         Obsolete Army Weapon
Enterprise Licenses for             Ground System Program               Systems (9/27/01)
Computer Software (9/25/01)         Management (8/28/01)
                                                                        Army Audit Agency
01066002 Database Security          (See classified annex to this
Controls (6/7/01)                   report for additional informa-      AA01-255 Technology Trans-
                                    tion, including reports issued by   fers in Special Programs
01066018 Access Controls at         other components of the             (5/31/01)
Air Force High Performance          intelligence oversight
Computing Centers (6/26/01)                                             AA01-277 Technology Trans-
                                    community.)                         fers of Classified and Sensitive
99066040 Air Force Research                                             Information (5/18/01)
Laboratory UNIX-Based               LOGISTICS
Computer Systems (5/21/01)                                              AA01-285 Distance Learning
                                                                        Facilities and Hardware Acqui-
                                    (Includes issues relating to        sition Structure (6/29/01)
INTELLIGENCE                        supply systems; transportation
                                    including fuels; maintenance of     AA01-335 Establishment of
                                    weapon systems; foreign             Unique Item Tracking Reposi-
(Includes issues relating to                                            tory for Category I Munitions
intelligence programs and other     military sales; foreign military
                                                                        (6/18/01)
classified operations.)             financing; and international
                                    military education and training.)   AA01-349 Electronic Technical
IG, DoD                                                                 Manuals (6/29/01)
                                    IG, DoD
D-2001-098 Development of                                               AA01-350 Fuel Point
Radio Frequency Weapons             D-2001-119 Assessment of            Operations (6/29/01)
Threat Assessments                  Inventory and Control of
(CLASSIFIED) (4/16/01)              Department of Defense Military      AA01-357 Army Modernization
                                    Equipment (5/10/01)                 Training (New Equipment
Army Audit Agency                                                       Training) (6/29/01)
                                    D-2001-128 Government
AA01-376 Secure Environment         Performance and Results Act         AA01-360 Depot Maintenance
Contracting (7/16/01)               Goals: Surge Sealift and Forces     Workload Reporting FY 00 and
                                    Supported by Land- and Sea-         Out Years (7/12/01)
                                    Based Pre-Positioning(5/23/01)
                                                                        AA01-394 Customer-Wait-Time
                                                                        (8/10/01)




                                                   37
Appendix A                                                         Semiannual Report to the Congress


AA01-448 Army Workload and      00062020 Followup Audit,              D-2001-179 Military Aircraft
Performance – Ammunition        Software Support for Foreign          Accident Investigation and
(9/21/01)                       Military Sales of F-16 Aircraft       Reporting (9/10/01)
                                (4/26/01)
Naval Audit Service                                                   Naval Audit Service
N2001-0020 Acquisition and      00062022 Depot Maintenance            N2001-0026 Potential Monetary
Maintenance of Consolidated     Tool Management (8/29/01)             Benefits (5/24/01)
Automated Support Systems       01058004 Aerospace Expedi-
(4/5/01)                                                              N2001-0046 Clerical and
                                tionary Force Planning (7/12/01)      Administrative Functions at the
N2001-0021 Department of the    01062003 Air Mobility                 Naval Aviation Depot, Cherry
Navy's Cost Reduction and       Command Engine Repair Center          Point, NC (8/31/01)
Effectiveness Improvement       Staffing (8/10/01)
Process (4/27/01)
                                01062009 Commodity Quality            AUDIT OVERSIGHT
N2001-0024 Ordnance Inven-
tory Statistical Sampling
                                Deficiency Management                 REVIEWS
                                (8/10/01)
Methodology (5/9/01)
                                99061019 Aircraft Engine Life-        IG, DoD
N2001-0042 Marine Corps         Limited Item Requirements
Logistics Campaign Plan to                                            D-2001-6-005 Report on
                                (7/26/01)                             Quality Control Review of
Enhance Logistics Support for
Operations (8/10/01)                                                  Deloitte & Touche, LLP, and
                                99061021 F100-PW-220E
                                                                      Defense Contract Audit Agency
                                Engine Upgrade Program
N2001-0043 Marine Corps F/A-                                          for Office of Management and
                                (4/13/01)
18 Readiness Reporting                                                Budget Circular A-133 Audit
(8/10/01)                                                             Report of Pennsylvania State
                                                                      University, Fiscal Year Ended
N2001-0044 Marine Corps         OTHER                                 June 30, 1999 (5/1/01)
Logistics Campaign Plan to
Implement Best Practices        IG, DoD                               Army Audit Agency
(Innovation) (8/14/01)                                                AA01-299 Army Internal
                                D-2001-133 Deliberate Planning
                                for Meteorological and                Review Quality Control
Air Force Audit Agency
                                Oceanographic Operations              Program (6/29/01)
00058003 War Reserve Materiel   (CLASSIFIED) (6/1/01)
Requirements for Subsistence                                          AA01-300 Army Internal
(U) (CLASSIFIED) (4/6/01)       D-2001-143 Operations of the          Review Quality Control
                                National Assessment Group             Program (6/29/01)
00058014 Space-Related          (CLASSIFIED) (6/19/01)
Ground Facility Security                                              AA01-301 Army Internal
(8/31/01)                       D-2001-151 Meteorological and         Review Quality Control
                                Oceanographic Support in the          Program (6/29/01)
00061029 Government Loaned      Pacific Theater (6/28/01)
Assets (9/27/01)                                                      AA01-302 Army Internal
                                D-2001-152 Meteorological and         Review Quality Control
00062001 Sacramento Air         Oceanographic Support in the          Program (6/29/01)
Logistics Center Workload       European Theater (6/28/01)
Transition (4/20/01)                                                  AA01-303 Army Internal
                                D-2001-157 Global Command             Review Quality Control
00062017 San Antonio Air        and Control System – Meteoro-         Program (6/29/01)
Logistics Center Workload       logical and Oceanographic
Transition (9/26/01)            Application (7/11/01)                 AA01-355 Army Internal
                                                                      Review Quality Control
                                                                      Program (Year Ended 31 March
                                                                      2000) (7/20/01)


                                               38
Semiannual Report to the Congress                                                            Appendix B


                                APPENDIX B*
          INSPECTOR GENERAL, DoD, AUDIT REPORTS ISSUED CONTAINING
                 QUANTIFIABLE POTENTIAL MONETARY BENEFITS



                                                                       Potential Monetary Benefits

                                                                       Disallowed      Funds Put to
                  Audit Reports Issued                                   Costs1         Better Use

 D-2001-094 Management of Contracts for F110 Engine                          N/A          $1,050,000
 Procurements (4/4/01)
 D-2001-103 Acquisition of the Joint Helmet Mounted                          N/A          17,000,000
 Cueing System (4/18/01)
 D-2001-114 DoD Contractor Debt Collection Process                           N/A          12,600,000
 (5/7/01)
 D-2001-131 Items Excluded From the Defense Logistics                        N/A          61,200,000
 Agency Defense Inactive Item Program (5/31/01)
 D-2001-134 Bulk Fuel Infrastructure Military                                N/A          26,000,000
 Construction Project Review Process: Pacific (6/4/01)
 D-2001-138 Acquisition of the Joint Biological Point                        N/A          57,800,000
 Detection System (6/13/01)
 D-2001-149 Coordinating and Tracking of Commercial                          N/A            149,000
 Containers in Korea (6/22/01)
 D-2001-171 Industrial Prime Vendor Program at the Naval                     N/A            667,000
 Aviation Depot - Cherry Point (8/6/01)
 Totals                                                                       0         $176,466,000
 *Fulfills the requirement of 5 U.S.C., Appendix 3, Section 5(a)(6)
 1
  There were no OIG audit reports during the period involving disallowed costs.




                                                       39
Appendix C                                                                  Semiannual Report to the Congress


                                            APPENDIX C*
                                        FOLLOWUP ACTIVITIES



       DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
          RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1
                              ($ in thousands)

                                                                                                  Funds Put
                                   Status                                          Number          to Better
                                                                                                      Use
 A.    For which no management decision had been made by the                             40         $84,272
       beginning of the reporting period.
 B.    Which were issued during the reporting period.                                    93         176,516
       Subtotals (A+B)                                                                  133         260,788
 C.    For which a management decision was made during the reporting                     97         186,321
       period.
         (i)    dollar value of recommendations that were agreed to by
                management
                  - based on proposed management action                                              73,005
                  - based on proposed legislative action
         (ii)   dollar value of recommendations that were not agreed to                             113,316
                by management2
 D.    For which no management decision has been made by the end of                      36          74,467
       the reporting period.

       Reports for which no management decision was made within 6                             3                0
       months of issue (as of September 30, 2001).3
 1
  OIG audit reports during the period questioned costs of $248,000.
 2On
      three audit reports with a total of potential funds put to better use of $40.2 million, management has
  agreed to take the recommended actions, but the amount of agreed monetary benefits cannot be determined
  until those actions are completed.
 3OIG Report No. D-2001-086, “On-Board Jammers for the Integrated Defensive Electronic Countermeasures

  Suite,” was issued March 20, 2001, and decided October 9, 2001.
  OIG Report No. D-2001-028, “Compliance with Procurement Laws in Purchasing Free Weights and Other
  Strength Building Equipment,” issued December 27, 2000, had no management decision made within 6
  months of issuance, and comments were being sought as of November 1, 2001.
  OIG Report No. D-2001-085, “The 2000 DoD Financial Improvement Plan,” issued March 19, 2001, had no
  management decision made within 6 months of issuance, and mediation was ongoing as of November 1,
  2001.


 *Fulfills requirements of 5 U.S.C., Appendix 3, Section 5(a)(8)(9) and Section 5(b)(2)(3).


                                                        40
Semiannual Report to the Congress                                                                       Appendix C




                  STATUS OF ACTION ON CENTRAL INTERNAL AUDITS1
                                 ($ in thousands)

                                                                         Number of             Funds Put to
                       Status of Action
                                                                          Reports               Better Use
 IG, DoD
        Action in Progress - Beginning of Period                                   306               $156,730
        Action Initiated - During Period                                             97                 31,005
        Action Completed - During Period                                             77               103,153

        Action in Progress - End of Period 2                                       326                   5,730

 Military Departments

        Action in Progress - Beginning of Period 3                                 413              5,014,600

        Action Initiated - During Period                                           141                418,459
        Action Completed - During Period                                             77             3,727,946
        Action in Progress - End of Period                                         477              1,726,808
  1OIG
        audit reports during the period questioned costs of $248,000.
  2On  certain reports (primarily from prior periods) with audit estimated monetary benefits of $827 million,
   we agreed that the resulting monetary benefits can only be estimated after completion of management
   action, which is ongoing.
  3Reflects an upward adjustment of $2 billion due to a data transmission error in the prior period.




                                                         41
Appendix D                                                                  Semiannual Report to the Congress


                                          APPENDIX D
                                CONTRACT AUDIT REPORTS ISSUED*
                                         ($ in millions)



                                      Reports             Amounts             Questioned          Funds Put to
       Type of Audit2
                                      Issued*             Examined              Costs3             Better Use1

   Incurred Costs                         18,140              $53,003.7             $795.4               $202.04
   Forward Pricing                          4,979              68,859.0                   --            1,714.15
   Proposals
   Cost Accounting                          1,524                 366.8                90.0                     --
   Standards

   Defective Pricing                          462              (Note 6)                25.3                     --

   Other                                         3                    --                  --                    --

   Totals                                 25,108             $122,229.5             $910.7              $1,916.1
    1This
          schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the 6
     months ended September 30, 2001. Both “Questioned Costs” and “Funds Put to Better Use” represent
     potential cost savings. Because of limited time between availability of management information system data
     and legislative reporting requirements, there is minimal opportunity for the DCAA to verify the accuracy of
     reported data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication.
    2This schedule represents audits perfomed by DCAA summarized into four principal categories, which are

     defined as
          Incurred Costs - Audits of direct and indirect costs charged to Government contracts to determine that
     the costs are reasonable, allocable and allowable as prescribed by the Federal Acquisition Regulation,
     Defense Federal acquisition Regulation, and provisions of the contract. Also included under incurred cost
     audits are Operation Audits, which evaluate a contractor’s operations and management practices to identify
     opportunities for increased efficiency and economy, and Special Audits, which include audits of terminations
     and claims.
           Forward Pricing Proposals - Audits of estimated future costs of proposed contract prices, proposed
     contract change orders, costs for redeterminable fixed-price contracts and costs incurred but not yet covered
     by definitized contracts.
           Cost Accounting Standards - A review of a contractor’s cost impact statement required due to changes
     to disclosed practices, failure to consistently follow a disclosed or established cost accounting practice or
     noncompliance with a CAS regulation.
           Defective Pricing - A review to determine whether contracts are based on current, cimplete, and
     accurate cost or pricing data (the Truth in Negotiations Act).
    Other - Audits conducted in support of cases referred for investigation.
    3Questioned costs represent costs that DCAA reported as unsupported.
    4Represents recommendations associated with Operations Audits where DCAA has advised a contractgor that

     funds could be used more effectively if management took action to implement cost reduction
     recommendations.
    5Represents potential cost reductions that may be realized during contract negotiations.
    6Defective pricing dollars examined are not reported because the original value was included in the audits

     associated with the forward pricing proposals.




                                                        42
Semiannual Report to the Congress                                                      Appendix D




                Waivers of Advisory and Assistance Service Contracts

  A review is made of each waiver granted by the Department for advisory and assistance services
  contracts related to testing support. This review is required by Section 802, Defense
  Authorization Act for Fiscal Year 1990.

  The Department made no waivers during the period and therefore, no reviews were made by
  the OIG.




                                               43
     If you suspect Fraud, Waste, Abuse, or Mismanagement in
          the Department of Defense, please contact us at:
                       Hotline@dodig.osd.mil
                                 or
                       www.dodig.osd.mil/hotline
                                 or call:
                              800-424-9098




The Hotline is available 24 hours per day. The caller can remain anonymous.
             If you prefer, you may send written complaints to:

                      Office of the Inspector General
                          Department of Defense
                                 Room 929
                           400 Army Navy Drive
                      Arlington, Virginia 22202-4704
